2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-247
CITY OF BOISE,
Petitioner,

v.
ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F. BELL, PAMELA S.
HAWKES, AND BASIL E. HUMPHREY,
Respondents.

AFFIDAVIT OF SERVICE

J, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF STATES OF IDAHO, ALASKA, INDIANA,
LOUISIANA, NEBRASKA, SOUTH DAKOTA, AND TEXAS AS AMICI CURIAE IN SUPPORT OF PETITIONER in the
above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to
the following:

SEE ATTACHED

To be filed for:
LAWRENCE G. WASDEN
Attorney General
BRIAN KANE
Assistant Chief Deputy
STEVEN L. OLSEN
Chief of Civil Litigation
MEGAN A. LARRONDO
Deputy Attorney General
Counsel of Record
P.O. Box 83720
Boise, ID 83720-0010
Telephone: (208) 334-2400
megan.larrondo@ag.idaho.gov

Counsel for Amici Curiae States

Subscribed and sworn to before me this 24th day of September, 2019.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska 2 LE Onda ,

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38476
THEANE D. EVANGELIS
Counsel of Record
BRADLEY J. HAMBURGER
JOSEPH TARTAKOVSKY
SAMUEL ECKMAN
WILLIAM F. COLE
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071

(213) 229-7000
tevangelis@gibsondunn.com

Counsel for Petitioners

MICHAEL E. BERN
SCOTT C. JONES
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000

Washington, DC 20004
(202) 637-2200
michael.bern@lw.com
scott.jones@lw.com

Counsel for Respondents
